                            DEPARTMENT
                            DEPARTMENTOF
                                       OFHEALTH
                                         HEALTH&.
                                                &. HUMAN
                                                   HUMAN SERVICES
                                                         SERVICES                                         Office of Inspector General
                                                                                                          Office              General

(4"OVIC~"l.
 '..
 '".
       ;...."'10                                                                                          Washington, D.C.
                                                                                                          Washington, D.C. 20201
                                                                                                                           20201




                                                            APR -- 66 2009
                                                            APR        20


                   TO:
                   TO: Charlene  Frizzera
                            Charlene Frizzera
                                    Acting Administrator
                                    Centers for Medicare & Medicaid Services
                                                                    Services


                       ~h ~hf::

                   FROM:
                     ~:;~~y
                   FROM:                   f:::r-­
                              ~:;~~y Inspector General
                                          Inspector     forfor
                                                    General Audit
                                                               AuditServices
                                                                     Services


                   SUBJECT: Review ofof
                              Review  Inpatient
                                        InpatientHospital
                                                  HospitalClaims
                                                           Claims Biled
                                                                  Billedas
                                                                         as Family
                                                                            Family Planing
                                                                                   PlanningServices
                                                                                            Services Under
                                                                                                     Under
                                                 State Medicaid Program (A-02-06-01007)
                                    the New York State


                   Attached is an
                                an advance
                                   advance copy
                                             copy of our final
                                                           final report
                                                                 report on
                                                                        on our
                                                                           our review
                                                                                review of
                                                                                       of inpatient
                                                                                           inpatient hospital
                                                                                                     hospital claims
                                                                                                              claims billed
                                                                                                                     biled
                   as family
                      family planning
                              planing services
                                        servicesunder
                                                 underthe
                                                        the New
                                                             New York
                                                                   York State
                                                                         State (the
                                                                               (the State) Medicaid program.
                                                                                                      program. WeWe will
                                                                                                                     will
                   issue this report to the State within 55 business days.
                                                                      days.

                   Our objective was to determine whether the State properly claimed enhanced 90-percent
                                                                                              90-percent Federal
                                                                                                         Federal
                   reimbursement for inpatient family planning claims submitted by hospitals.

                   The State improperly claimed enhanced 90-percent Federal reimbursement for inpatient family
                   planning claims submitted by hospitals.      Ofthe
                                                     hospitals. Of      173 claims in our sample,
                                                                    the 173                sample, 33 qualified  as family
                                                                                                      qualified as  family
                   planning services and could be claimed at the enhanced 90-percent Federal reimbursement rate.
                   However, the
                   However,   the remaining
                                   remaining 170
                                               170 could
                                                    could not
                                                          notbebe claimed
                                                                  claimedasasfamily
                                                                              familyplanning
                                                                                      planing services
                                                                                                services or could be
                            only in
                   claimed only   in part
                                     par as
                                          as family
                                             family planning services. Of Ofthose
                                                                             those 170
                                                                                    170 claims,
                                                                                        claims, 117
                                                                                                 117 were
                                                                                                      were for
                                                                                                            for services
                                                                                                                services
                   unelated to
                   unrelated to family
                                family planing,
                                        planning,4242were
                                                       werefor
                                                             forservices
                                                                 services partially
                                                                          partially related to
                                                                                            to family
                                                                                               family planning,
                                                                                                       planing, and
                                                                                                                  and 11
                                                                                                                       11 did
                                  properly completed sterilization consent
                   not include a properly                              consent form.
                                                                               form. Based
                                                                                      Based on our sample
                                                                                                     sample results, we
                   estimate that the State received $2,603,128 in unallowable Federal Medicaid reimbursement.

                         overpayment occurred
                   This overpayment    occurred because:
                                                  because: (1)
                                                            (l) providers
                                                                 providers incorrectly
                                                                            incorrectly claimed services as family
                   planning,  (2) the
                   plannng, (2) the   State's  Medicaid Management Information System
                                                        Management       Information   System (MMIS)      edit routines
                                                                                                 (MMIS) edit   routines did
                       adequately identify
                   not adequately   identify claims
                                              claims unrelated
                                                     unrelated to
                                                                to family
                                                                    familyplanning,
                                                                            planing, (3)
                                                                                      (3) the
                                                                                           the State
                                                                                               State did
                                                                                                     did not
                                                                                                         not have
                                                                                                             have procedures
                                                                                                                    procedures
                   to allocate the costs of inpatient hospital claims partially related to family planning, and
                   (4)
                   (4) providers
                       providers did
                                  did not
                                      not properly
                                          properly complete    sterilization consent
                                                    complete sterilization   consent forms.
                                                                                      forms.

                   We recommend that the State:

                       •.    refund$2,603,128
                            refund  $2,603,128 to
                                               to the
                                                   theFederal
                                                       FederalGovernment,
                                                               Governent,
Page 2 – Charlene Frizzera


   •   reemphasize to providers that only services directly related to family planning should be
       billed as family planning,

   •   ensure that MMIS edit routines use all appropriate claim information to identify claims
       that are ineligible for enhanced 90-percent Federal reimbursement,

   •   develop procedures to properly allocate the cost of inpatient hospital stays partially
       related to family planning,

   •   reinforce guidance to hospitals that a properly completed sterilization consent form must
       be prepared and maintained for all Medicaid sterilizations and ensure that hospitals
       comply with this guidance, and

   •   determine the amount of Federal Medicaid funds improperly reimbursed for claims
       unrelated to family planning subsequent to our audit period and refund that amount to the
       Federal Government.

In its comments on our draft report, the State generally concurred with our first recommendation
and fully concurred with our remaining recommendations. Regarding our first recommendation
to refund $2,603,128 to the Federal Government, the State requested copies of our related
working papers and indicated that, following a review of the working papers, it will refund all
Federal Medicaid funds improperly reimbursed for claims unrelated to family planning services.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through e-mail at James.Edert@oig.hhs.gov. Please refer to report number A-02-06-01007 in
all correspondence.


Attachment
                                                                                                       Ofice
                                                                                                       Office Of  Inspeor General
                                                                                                              Of Inspector General
 ".'lRVIC'..",.
 "    ...RVlC'-.,.
                                                                                                       Office Of Audit
                                                                                                                 Audit Services
                                                                                                                       Services
   ~
\,:~f..
(       DEPARTMENT OF HEALTH & IUlMAN SIlRVICES
(' ~ DEPARTM  OF HEALTH & Il Si;VlCE

\::'t                                                                                                   Region
                                                                                                        Region IIII
                                                                                                       Jacob K. Javlts Federal Building
                                                                                                                               Building
                                                  APR -·9
                                                  APR -.9 2009
                                                           20
                                          26
                                                                                                        28 Federal Plaz
                                                                                                           Federal Plaza

                  A-02-06-01007
  Report Number: A-02-06-0 1 007                                                                        Naw York,
                                                                                                        New York, NY
                                                                                                                  NY 10278
                                                                                                                     10278..


  Richard F. Daines, M.D.
  Commissioner
  New York State Department of
                            of Health
    th
  14 Floor,
  14th Floor, Coming
              Coming Tower
  Empire State Plaza
  Albany, New York
  Albany, New   York 12237
                      12237

  Dear Dr. Daines:

  Enclosed is the U.S. Department of Health and Human Services
  Enclosed is the U.S. Deparment of                            Services (HHS),
                                                                        (HHS), Office
                                                                               Office ofInspector
                                                                                       ofInspector
  General (OIG),
  General  (OIG), final
                    final report
                          report entitled
                                 entitled "Review
                                          "Review ofof Inpatient
                                                       Inpatient Hospital
                                                                 Hospital Claims
                                                                          Claims Billed
                                                                                 Biled as Family
  Plannng
  Planning Services
            Services Under the New York  York State
                                               State Medicaid
                                                     MedicaidProgram."
                                                                Program." We
                                                                           We will
                                                                               wil forward
                                                                                   forward a copy of
  this report to
              to the
                 the HHS
                     HHS action
                            action official noted on
                                   offcial noted  on the
                                                     the following
                                                         following page for review and any action
  deemed         necessary. ..
  deemed necessary.

  The HHSHHS action
                  action official
                              official will
                                          wil make
                                                 make final
                                                          final determination
                                                                   detennination asas to
                                                                                       to actions
                                                                                          actions taken
                                                                                                   taken on
                                                                                                         on all
                                                                                                            all matters
                                                                                                                matters reported.
                                                                                                                         reported.
  We
  We    request
     request that youthat   you
                      respond      respond
                              to this            to this
                                      offcial within 30 daysofficial    within
                                                             from the date of  30 days from the date of    this letter.
                                                                                                                letter. Your
  response should present any comments or additional information                 infonnation that you believe may have a
  bearing on the final    final determination.

  Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG  010 reports generally are made
  available to
  available to the
               the public
                   public to
                          to the extent that infonnation
                                             information in the report is not subject to exemptions in
      Act. Accordingly,
  the Act.  Accordingly, this report wil
                                     willbe
                                          beposted
                                              postedon
                                                     onthe
                                                        the Internet
                                                             Internet at
                                                                      at http://oig.hhs.gov.
                                                                         http://oig.hhs.gov.

  If you have
         have any questions or comments about this report, please do not hesitate to call me, or
  contact John Berbach,
               Berbach, Audit Manager, at (518) 437-9390, extension 228, or through e-mail at
  John.Berbach@oig.hhs.gov.    Pleaserefer
  John.Berbach(ioig.hhs.gov. Please   refertotoreport
                                                reportnumber
                                                       numberA-02-06-01
                                                              A-02-06-01007  in all
                                                                        007 in  all correspondence.
                                                                                    correspondence.

                                                             Sincerely,

                                                        ~f, Erkd:
                                                        d:James:"Ed:M:

                                                                P. Edert
                                                             Regional Inspector General
                                                              for Audit Services


  Enclosure
Page 2 – Richard F. Daines, M.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF INPATIENT
HOSPITAL CLAIMS BILLED AS
FAMILY PLANNING SERVICES
UNDER THE NEW YORK STATE
   MEDICAID PROGRAM




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-02-06-01007
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

The Federal share of the Medicaid program is determined by the Federal medical assistance
percentage (FMAP). During our audit period (January 1, 2000, through June 30, 2005), the
FMAP in New York State (the State) was 50 or 52.95 percent. Section 1903(a)(5) of the Act and
42 CFR §§ 433.10 and 433.15 provide enhanced 90-percent Federal reimbursement for family
planning services. Pursuant to section 4270 of the CMS “State Medicaid Manual,” family
planning services prevent or delay pregnancy or otherwise control family size.

OBJECTIVE

Our objective was to determine whether the State properly claimed enhanced 90-percent Federal
reimbursement for inpatient family planning claims submitted by hospitals.

SUMMARY OF FINDINGS

The State improperly claimed enhanced 90-percent Federal reimbursement for inpatient family
planning claims submitted by hospitals. Of the 173 claims in our sample, 3 qualified as family
planning services and could be claimed at the enhanced 90-percent Federal reimbursement rate.
However, the remaining 170 could not be claimed as family planning services or could be
claimed only in part as family planning services. Of those 170 claims, 117 were for services
unrelated to family planning, 42 were for services partially related to family planning, and 11 did
not include a properly completed sterilization consent form. Based on our sample results, we
estimate that the State received $2,603,128 in unallowable Federal Medicaid reimbursement.

This overpayment occurred because: (1) providers incorrectly claimed services as family
planning, (2) the State’s Medicaid Management Information System (MMIS) edit routines did
not adequately identify claims unrelated to family planning, (3) the State did not have procedures
to allocate the costs of inpatient hospital claims partially related to family planning, and
(4) providers did not properly complete sterilization consent forms.




                                                 i
RECOMMENDATIONS

We recommend that the State:

   •   refund $2,603,128 to the Federal Government,

   •   reemphasize to providers that only services directly related to family planning should be
       billed as family planning,

   •   ensure that MMIS edit routines use all appropriate claim information to identify claims
       that are ineligible for enhanced 90-percent Federal reimbursement,

   •   develop procedures to properly allocate the cost of inpatient hospital stays partially
       related to family planning,

   •   reinforce guidance to hospitals that a properly completed sterilization consent form must
       be prepared and maintained for all Medicaid sterilizations and ensure that hospitals
       comply with this guidance, and

   •   determine the amount of Federal Medicaid funds improperly reimbursed for claims
       unrelated to family planning subsequent to our audit period and refund that amount to the
       Federal Government.

NEW YORK STATE COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State generally agreed with our recommendations and
described actions that it will take in response. Regarding our first recommendation to refund
$2,603,128 to the Federal Government, the State requested copies of our related working papers
and indicated that, following a review of the working papers, it will refund all Federal Medicaid
funds improperly reimbursed for claims unrelated to family planning services. We will provide
the State with copies of working papers related to claims questioned by our audit. The State’s
comments are included in their entirety as Appendix C.




                                                ii
                                                TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION……………………………………………………………………………1

        BACKGROUND ........................................................................................................... 1
            Medicaid Program.............................................................................................. 1
            New York State’s Medicaid Program ................................................................ 1
            Medicaid Coverage of Family Planning Services………………………….…..2

        OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
             Objective ............................................................................................................ 2
             Scope.................................................................................................................. 2
             Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

        SERVICES UNRELATED TO FAMILY PLANNING................................................4
             Inpatient Psychiatric Claims ..............................................................................4
             Graduate Medical Education Claims .................................................................5
             Removal of Intrauterine Device Due to Infection..............................................5
             Other Claims Unrelated to Family Planning......................................................5

        SERVICES PARTIALLY RELATED TO FAMILY PLANNING ..............................5

        IMPROPERLY COMPLETED STERILIZATION CONSENT FORMS ....................6

        CAUSES OF THE OVERPAYMENTS........................................................................7
             Improperly Coded Claims..................................................................................7
             Inadequate Medicaid Management Information System Edit Routines ............7
             Lack of Written Policies for Multiple Procedure Inpatient Stays......................8
             Incomplete Sterilization Consent Forms............................................................8

        RECOMMENDATIONS .............................................................................................. 8

        NEW YORK STATE COMMENTS AND OFFICE OF INSPECTOR
         GENERAL RESPONSE.............................................................................................9

APPENDIXES

        A – SAMPLE DESIGN AND METHODOLOGY

        B – SAMPLE RESULTS AND ESTIMATES

        C – NEW YORK STATE COMMENTS



                                                                  iii
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

New York State’s Medicaid Program

In New York State (the State), the Department of Health (DOH) is the State agency responsible
for operating the Medicaid program. Within the DOH, the Office of Medicaid Management
administers the Medicaid program. DOH uses the Medicaid Management Information System
(MMIS), a computerized payment and information reporting system, to process and pay
Medicaid claims.

The Federal share of the Medicaid program is determined by the Federal medical assistance
percentage (FMAP). During our audit period (January 1, 2000, through June 30, 2005), the
FMAP in New York State was 50 percent from January 1, 2000, through March 31, 2003,
52.95 percent from April 1, 2003, through June 30, 2004, and 50 percent from July 1, 2004,
through June 30, 2005.

Providers enrolled in the Medicaid program submit claims for payment to the State’s MMIS.
The State furnishes an MMIS provider manual that contains instructions for the proper
completion and submission of claims. The provider is required to complete certain fields on the
claim form to indicate the type of service provided.

The MMIS uses a variety of indicators on the Medicaid claim form to identify family planning
services eligible for enhanced 90-percent Federal reimbursement. These indicators include the
family planning indicator code, special program code, and sterilization/abortion code. The State
agency considers all claims with either a “Yes” or “1” in the family planning indicator field or
special program code or an “F” through “K” in the sterilization/abortion field 1 to be related to
family planning.




1
 Codes for this field are “F” (Sterilization),”G” (Sterilization and Induced Abortion–Danger to Woman’s
Life),“H” (Sterilization and Induced Abortion–Physical Health Damage to the Woman), “I” (Sterilization and
Induced Abortion–Victim of Rape or Incest), “J” (Abortion–Medically Necessary), and “K” (Abortion–Elective).


                                                      1
Medicaid Coverage of Family Planning Services

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age who are eligible under the State plan and who desire such
services and supplies. Section 1903(a)(5) of the Act and 42 CFR §§ 433.10(c)(1) and
433.15(b)(2) authorize enhanced 90-percent Federal reimbursement for family planning services.

According to section 4270 of the CMS “State Medicaid Manual” (the manual), family planning
services prevent or delay pregnancy or otherwise control family size. The manual also states that
enhanced 90-percent rate of Federal reimbursement is available for the cost of a sterilization if a
properly completed sterilization consent form is submitted in accordance with the requirements
of 42 CFR part 441, subpart F. In addition, the manual states that 90-percent Federal
reimbursement is not available for costs related to other procedures performed for medical
reasons, such as the removal of an intrauterine device due to infection.

On January 30, 1991, CMS issued Financial Management Review Guide Number 20 (the guide),
entitled “Family Planning Services,” to the State via Medicaid State Operations Letter 91-9. The
guide refers to a 1980 policy memorandum regarding CMS policy in allocating inpatient costs
where multiple procedures are performed. That CMS policy states that when multiple procedures
are performed during a single hospital stay and submitted as a single inpatient claim, a State claim
for Federal reimbursement must distinguish between those costs attributable to family planning
(eligible for 90-percent Federal reimbursement) and those costs attributable to other covered
services (reimbursed at the regular FMAP rate). Updates to the CMS guide in 1993, 1997, and
2002 contained the same provisions.

The State’s Medicaid State plan says that family planning services and supplies for individuals of
childbearing age are covered without limitations. State regulations define family planning
services as the offering, arranging, and furnishing of those health services that enable
individuals, including minors who may be sexually active, to prevent or reduce the incidence of
unwanted pregnancies. 2

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State properly claimed enhanced 90-percent Federal
reimbursement for inpatient family planning claims submitted by hospitals.

Scope

Our audit period covered January 1, 2000, through June 30, 2005. We did not review the overall
internal control structure of the State or the Medicaid program. Rather, we reviewed only the
internal controls that pertained directly to our objective. We did not review the claims in our
sample for compliance with Medicaid requirements other than those related to whether the
claims qualified for enhanced 90-percent Federal reimbursement as family planning services.
2
    Official Compilation of Codes, Rules and Regulations of the State of New York, Title 18, § 505.13.


                                                           2
We performed fieldwork at DOH’s offices in Albany, New York; the State MMIS fiscal agent in
Rensselaer, New York; and at 38 hospitals throughout the State.

Methodology

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and guidance and the State plan;

    •   held discussions with CMS officials and acquired an understanding of CMS guidance
        furnished to State officials concerning Medicaid family planning claims;

    •   held discussions with State officials to ascertain State policies, procedures, and guidance
        for claiming Medicaid reimbursement for family planning services;

    •   ran computer programming applications at the MMIS fiscal agent, which identified 2,724
        paid inpatient hospital services billed at the enhanced 90-percent rate of Federal
        reimbursement by the State totaling $8,813,959 ($7,929,434 Federal share) for the period
        January 1, 2000, through June 30, 2005;

    •   eliminated from the 2,724 claims 67 claims with Federal paid amounts that were not
        equal to 90 percent of their Medicaid paid amounts and 1 claim for a beneficiary in client
        aid category 56; 3

    •   identified a sampling frame of 2,656 inpatient hospital claims billed at the enhanced
        90-percent rate of Federal reimbursement by the State, totaling $8,597,705 ($7,737,923
        Federal share);

    •   selected a stratified random sample of 173 claims from the population of 2,656 claims;

    •   obtained and reviewed medical records from the 38 inpatient hospitals that submitted the
        173 sample claims to make an initial determination as to whether the claimed services
        were related to family planning and eligible for enhanced 90-percent Federal
        reimbursement;

    •   submitted the medical records and our sample results to our medical reviewer, a CMS
        physician and policy expert on family planning; and

    •   estimated the dollar impact of the unallowable Federal reimbursement claimed in the total
        population of 2,656 claims.

Appendix A contains the details of our sample design and methodology, and Appendix B
contains our sample results and estimates.

3
 Beneficiaries in client aid category 56 were included in a family planning waiver program that we reviewed under a
separate audit (A-02-07-01001, May 22, 2008).


                                                        3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The State improperly claimed enhanced 90-percent Federal reimbursement for inpatient family
planning claims submitted by hospitals. Of the 173 claims in our sample, 3 qualified as family
planning services and could be claimed at the enhanced 90-percent Federal reimbursement rate.
However, the remaining 170 could not be claimed as family planning services or could be
claimed only in part as family planning services. Of those 170 claims, 117 were for services
unrelated to family planning, 42 were for services partially related to family planning, and 11 did
not include a properly completed sterilization consent form. Based on our sample results, we
estimate that the State received $2,603,128 in unallowable Federal Medicaid reimbursement.

This overpayment occurred because: (1) providers incorrectly claimed services as family
planning, (2) the State’s MMIS edit routines did not adequately identify claims unrelated to
family planning, (3) the State did not have procedures to allocate the costs of inpatient hospital
claims partially related to family planning, and (4) providers did not properly complete
sterilization consent forms.

SERVICES UNRELATED TO FAMILY PLANNING

According to section 4270 of the manual, family planning services prevent or delay pregnancy or
otherwise control family size. The manual states that only items and procedures clearly
furnished or provided for family planning purposes may be claimed at the enhanced 90-percent
rate of Federal reimbursement. However, for 117 of the 173 claims in our sample, we
determined that the billed services were unrelated to family planning. The 117 claims included
73 inpatient psychiatric claims, 17 claims for graduate medical education (GME) services, 13
claims for the removal of an intrauterine device due to infection, 4 and 14 other claims unrelated
to family planning. All 117 claims were for services eligible for reimbursement at the applicable
FMAP rate of 50 or 52.95 percent.

Inpatient Psychiatric Claims

One provider submitted 68 of the 73 inpatient psychiatric claims. For these 68 claims, the
provider improperly entered a “1” (for yes) in the family planning indicator field, even though
none of the services were related to family planning. Provider officials stated that this miscoding
occurred as a result of a January 2003 software upgrade. The officials stated that the problem
was discovered in February 2003 and corrected for subsequent claims.



4
 There were actually 15 claims involving the removal of an intrauterine device, but 1 claim was allowable and
1 claim also involved an inpatient psychiatric stay and is included in the 73 inpatient psychiatric claims.


                                                         4
Graduate Medical Education Claims

Section 1905(a)(4)(C) of the Act requires States to furnish family planning services and supplies
to individuals of childbearing age who are eligible under the State plan and who desire such
services and supplies. GME Medicaid payments cover GME training expenses related to
inpatient hospital stays for Medicaid beneficiaries enrolled in a managed care plan. In these
instances, an inpatient hospital stay is billed to the managed care plan; however, a separate GME
claim is also billed to and paid by the State’s MMIS as a 1-day inpatient claim. Because each of
the 17 GME claims included a family planning procedure (sterilization or Depo-Provera
injection), hospital providers coded the GME claims with either a “Y” or “1” in the family
planning indicator field or an “F” or “J” in the abortion/sterilization field. When we discussed
these claims with CMS headquarters officials, they stated that GME Medicaid payments relate
only to training costs. Therefore, according to these officials, no portion of the 17 separately
billed Medicaid GME claims was eligible for 90-percent Federal reimbursement.

Removal of Intrauterine Device Due to Infection

Section 4270 of the CMS “State Medicaid Manual” states that 90-percent Federal reimbursement
is not available for costs related to procedures performed for medical reasons, such as the
removal of an intrauterine device due to infection. However, when hospital providers used
procedure code 9771 (related to the removal of an intrauterine contraceptive device), the State’s
MMIS categorized the service as family planning and assigned a “1” (for yes) in occurrence 1
(Family Planning) of the special program code. 5 As a result, 13 claims were submitted for
enhanced 90-percent Federal reimbursement despite having been correctly coded with a “0” or
“N” in the family planning indicator field.

Other Claims Unrelated to Family Planning

We also identified 14 claims that contained procedure and diagnosis codes unrelated to family
planning but contained either a “Y” or “1” in the family planning indicator field or an “F” or “K”
in the abortion/sterilization field. As a result, these 14 claims were not eligible for enhanced
90-percent Federal reimbursement. Some of these 14 claims related to circulatory system
diseases, renal failure, and acute lymphoid leukemia.

SERVICES PARTIALLY RELATED TO FAMILY PLANNING

On January 30, 1991, CMS issued the guide to the State via Medicaid State Operations Letter
91-9. The “Policy Memorandums” section of the guide states that when multiple procedures are
performed during a single hospital stay and submitted as a single inpatient claim, the State claim
must distinguish between those costs attributable to family planning and those costs attributable
to services covered at the regular FMAP. The guide also states that medical complications
caused by or following a family planning procedure should only be reimbursed at the regular
FMAP, not the enhanced 90-percent reimbursement rate. We determined that 42 of the 173
claims in our sample were partially related to family planning.

5
 According to the guide, code 9771 is among codes that are for “diagnostic and nonsurgical procedures.” The guide
states that these codes “would rarely, if ever, be coded on an inpatient hospital claim.”


                                                        5
For 35 sampled claims, the beneficiary was hospitalized for a nonfamily planning procedure, but
a portion of the beneficiary’s inpatient stay included a family planning procedure. For each of
these claims, the State claimed the entire cost of the inpatient stay at the enhanced 90-percent
Federal reimbursement rate rather than allocating the costs between 90 percent and the regular
FMAP. Of the 35 sampled claims, 33 involved services related to the delivery of a baby or
postpartum care followed by a sterilization, 1 involved a bladder augmentation with a
vasectomy, and 1 involved the delivery of a baby followed by a Depo-Provera injection before
the beneficiary was discharged.

In addition, for seven other sampled claims, the beneficiary was hospitalized as a result of
medical complications following a sterilization procedure. The State claimed the entire cost of
the inpatient stay at the enhanced 90-percent Federal reimbursement rate rather than allocating
the costs between 90 percent and the regular FMAP.

The 42 claims were not allocated between the enhanced 90-percent Federal reimbursement rate
and the regular FMAP because the State did not have controls to allocate inpatient hospital
claims between nonfamily planning and family planning procedures. 6

IMPROPERLY COMPLETED STERILIZATION CONSENT FORMS

Section 4270 of the manual states that enhanced 90-percent Federal reimbursement is available
for the cost of a sterilization if a properly completed sterilization consent form is submitted in
accordance with the requirements of 42 CFR part 441, subpart F. Regulations at 42 CFR
§ 441.256(a) state that Federal Medicaid reimbursement “. . . is not available in expenditures for
any sterilization or hysterectomy unless the Medicaid agency, before making payment, obtained
documentation showing that the requirements of this subpart were met.” In accordance with
42 CFR § 441.258(b)(4), the sterilization consent form must be signed and dated by the
physician who performed the sterilization procedure. Pursuant to 42 CFR § 441.258(c)(2)(iii),
except in the case of premature delivery or emergency abdominal surgery, the physician must
also certify that at least 30 days have passed between the date of the individual’s signature on the
consent form and the date upon which the sterilization was performed. Furthermore, 42 CFR
§ 441.258(a) states that the consent form must be a copy of the form appended to subpart F of
part 441 or another form approved by the Secretary of the Department of Health and Human
Services.

For 11 of the 173 claims in our sample, a sterilization consent form was not properly completed.
For 10 claims, the physician did not sign or date the consent form. In 4 of these 10 cases, the
beneficiary signed the consent form fewer than 30 days before the sterilization. 7 For one claim,

6
  After consulting with CMS headquarters officials, we calculated the amount of the claims that would have been
payable at the enhanced 90-percent Federal reimbursement rate for the 41 claims that included a sterilization or
vasectomy if the sterilization or vasectomy had been performed as an outpatient service in the hospital and the
amount of the remainder, which would have been payable at the regular FMAP. For the claim involving the Depo-
Provera injection, we calculated the amount of the claim that would have been payable at the enhanced 90-percent
Federal reimbursement rate if the injection had been given in the hospital’s clinic and the amount of the remainder,
which would have been payable at the regular FMAP.
7
  For the four cases in which the beneficiary signed the consent form fewer than 30 days before the sterilization, the
premature delivery box or emergency abdominal surgery box was not checked on the form.


                                                           6
the hospital could not locate a sterilization consent form. No Federal Medicaid reimbursement
was available for the sterilization procedure; however, we calculated the remainder of each of the
11 claims at the regular FMAP.

CAUSES OF THE OVERPAYMENTS

We identified four main causes of the overpayment. The same control problems were identified
in two previous audit reports. 8

Improperly Coded Claims

For the 117 sampled claims unrelated to family planning, providers incorrectly coded the
Medicaid claim form by marking “Yes” in the family planning indicator field, using a procedure
code that the MMIS recognized as family planning, or marking the abortion/sterilization field
with an “F,” “G,” “J,” or “K.” Specifically:

     •   For 92 claims, the provider entered a “Y” or “1” (for yes) in the family planning indicator
         field. Included in these 92 claims were services for cancer, pelvic fracture, renal failure,
         numerous psychiatric disorders, and a postabortion procedure.

     •   For 14 claims involving the removal of an intrauterine device due to infection, the MMIS
         assigned a “1” (Yes) in occurrence “1” (Family Planning) in the special program code. 9

     •   For 11 claims, providers marked the abortion/sterilization field with an “F,” “G,” “J,” or
         “K.” 10 As a result, the MMIS identified the service as related to family planning.

Inadequate Medicaid Management Information System Edit Routines

The MMIS contains edits to identify claims that potentially qualify for enhanced 90-percent
Federal reimbursement, but these edits did not deny enhanced reimbursement for claims
containing evidence that all or some of the services might not have qualified as family planning
services. The MMIS screened claims for the presence of specific codes in the family planning
indicator field, the special program code field, or the sterilization/abortion field (described
above) and required only one of these fields to be coded as related to family planning for the
system to classify a claim as eligible for enhanced 90-percent Federal reimbursement, even if

8
 “Review of Selected Inpatient Claims Billed as Family Planning Services Under the New York State Medicaid
Program” (A-02-90-01011, October 1990) and “Review of Inpatient and Ancillary Services Billed as Family
Planning Under the New York State Medicaid Program” (A-02-90-01029, August 1991). The State appealed the
disallowances in the reports to the Department of Health and Human Services, Departmental Appeals Board (DAB).
In New York State Department of Social Services, DAB No. 1284 (1991), and New York State Department of
Social Services, DAB No. 1364 (1992), the DAB generally upheld the disallowances in the two reports.
9
 For all 14 claims, providers used procedure code 9771 (removal of intrauterine contraceptive device) that caused
the MMIS to code the claims as family planning.
10
 Of the 11 claims, 8 were related to GME, 1 was related to depression, 1 was related to a digestive system
operation, and 1 was related to the removal of the fallopian tubes and ovaries of a postmenopausal woman.


                                                         7
other fields indicated that the claims were not related to family planning. As noted above, 92
claims contained a “Yes” in the family planning indicator field, but none of the claimed services
related to family planning. Even when providers correctly marked “0” (for no) in the family
planning indicator field for certain services (e.g., removal of the intrauterine device due to an
infection), the MMIS categorized the corresponding claims as family planning services because
of the procedure code used. Finally, for claims coded with an “F,” “G,” “J,” or “K” in the
sterilization/abortion field, the MMIS considered the corresponding service as related to family
planning even if the family planning indicator field and the special program code were marked
“No.”

Lack of Written Policies for Multiple Procedure Inpatient Stays

The State did not have a written policy to allocate the costs of inpatient stays involving both a
nonfamily planning procedure and a family planning procedure (e.g., a delivery of a baby and
sterilization during the same inpatient stay). Rather, the State treated these inpatient stays as
being entirely eligible for enhanced 90-percent Federal reimbursement. Forty-two of our
sampled claims were only partially related to family planning, yet all 42 were claimed at the
enhanced 90-percent Federal reimbursement rate.

Incomplete Sterilization Consent Forms

The State issued guidance to inpatient hospitals to assist them in understanding and complying
with Medicaid requirements for billing and submitting claims, including an appendix to its
billing guidelines that contained step-by-step instructions for completing sterilization consent
forms. The instructions noted that the completed and signed form must be kept in the patient’s
file and if upon audit the consent form is not present or is deficient, all payments associated with
the sterilization procedure will be recouped. Nevertheless, 11 of our sampled claims did not
include a properly completed sterilization consent form.

RECOMMENDATIONS

We recommend that the State:

   •   refund $2,603,128 to the Federal Government,

   •   reemphasize to providers that only services directly related to family planning should be
       billed as family planning,

   •   ensure that MMIS edit routines use all appropriate claim information to identify claims
       that are ineligible for enhanced 90-percent Federal reimbursement,

   •   develop procedures to properly allocate the cost of inpatient hospital stays partially
       related to family planning,




                                                 8
   •   reinforce guidance to hospitals that a properly completed sterilization consent form must
       be prepared and maintained for all Medicaid sterilizations and ensure that hospitals
       comply with this guidance, and

   •   determine the amount of Federal Medicaid funds improperly reimbursed for claims
       unrelated to family planning subsequent to our audit period and refund that amount to the
       Federal Government.

NEW YORK STATE COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In its comments on our draft report, the State generally agreed with our recommendations and
described actions that it will take in response. Regarding our first recommendation to refund
$2,603,128 to the Federal Government, the State requested copies of our related working papers
and indicated that, following a review of the working papers, it will refund all Federal Medicaid
funds improperly reimbursed for claims unrelated to family planning services. We will provide
the State with copies of working papers related to claims questioned by our audit. The State’s
comments are included in their entirety as Appendix C.




                                                9
APPENDIXES
                                                                                  APPENDIX A
                                                                                    Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was Medicaid claims billed by New York State at 90-percent Federal
reimbursement for inpatient hospital services during our January 1, 2000, through
June 30, 2005, audit period.

SAMPLING FRAME

The sampling frame was a computer file containing 2,656 Medicaid claims for inpatient services
billed as family planning at 90-percent Federal reimbursement during our review period. The
total Medicaid reimbursement for the 2,656 claims was $8,597,705 ($7,737,923 Federal share).
The Medicaid claims were extracted from the paid claims’ files maintained at the Medicaid
Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Medicaid claim for an inpatient hospital service billed as
family planning at the enhanced Federal reimbursement rate of 90 percent.

SAMPLE DESIGN

We used stratified random sampling to evaluate the population of Medicaid inpatient hospital
claims. To accomplish this, we separated the sampling frame into three strata as follows:

     -   Stratum 1: Claims with a Federal share payment amount from $0.01 to $7,499.99—
         2,513 claims.

     -   Stratum 2: Claims with a Federal share payment amount equal to or greater than
         $7,500—70 claims.

     -   Stratum 3: Claims with an inpatient psychiatric rate code—73 claims.

Note: We put all claims with an inpatient psychiatric rate code, regardless of Federal share
payment amount, in stratum 3.

SAMPLE SIZE

We selected a sample size of 173 claims as follows:

     -   30 claims from the first stratum,
     -   70 claims from the second stratum, and
     -   73 claims from the third stratum.
                                                                                APPENDIX A
                                                                                  Page 2 of 2

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software, RAT-
STATS. We used the random number generator for our sample.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the 2,513 claims in stratum 1. We selected 30 random numbers for
stratum one and selected the corresponding frame items. Each of the claims in stratum two and
in stratum three were selected. We created a list of the 173 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
                                                                                    APPENDIX B

                                SAMPLE RESULTS AND ESTIMATES

                                       Sample Details and Results
                               Value of                                                   Value of
                                Frame                     Value of                       Unallowable
   Stratum     Claims in       (Federal     Sample         Sample        Unallowable       Claims
   Number       Frame           Share)       Size      (Federal Share)     Claims      (Federal Share)
1. < $7,500      2,513        $6,599,783      30            $84,048           29           $32,968
2. ≥ $7,500         70           717,887      70            717,887           68           300,296
3. Inpatient
psychiatric
rate code           73           420,253       73           420,253           73           186,288
    Totals       2,656        $7,737,923      173        $1,222,188          170          $519,552




                                                 Estimates
                         (Limits Calculated for a 90-Percent Confidence Interval)

                                Point Estimate            $3,248,225
                                Lower Limit:              $2,603,128
                                Upper Limit:              $3,893,321
APPENDIX C
  Page 1 of 3
APPENDIX C
  Page 2 of 3
APPENDIX C
  Page 3 of 3
